AAAAAAAAAAAAAAA




                      U.S. Department of Energy
                      Office of Inspector General
                      Office of Audit Services




  Summary Special Report

 Management of the Clean Cities
 Conference




 This document provides a summary of a Special Report that is not publicly
 releasable. It is controlled pursuant to the Freedom of Information Act.




 OAS-SR-06-01                                         October 2005
